U.S. Department of Justice
Office of the Inspector General




A Review of Allegations of a Continuing
Double Standard of Discipline at the FBI




                                  Office of the Inspector General
                                  Office of Oversight and Review
                                                   November 2003
I.    INTRODUCTION

      In November 2002, the Office of the Inspector General (OIG) released a
report entitled, “A Review of Allegations of a Double Standard of Discipline at
the FBI,” which reviewed complaints from Federal Bureau of Investigation (FBI)
employees alleging that the FBI’s system of discipline was unfair because
senior managers were treated more leniently than rank and file employees.
One of the employees who made such allegations was John Roberts, a Unit
Chief in the FBI Office of Professional Responsibility (OPR).

      Our report concluded that there was insufficient evidence to conclusively
establish that the FBI systemically favors senior managers in the disciplinary
process. Our finding was based in part on the low number of cases involving
senior managers and the difficulty in comparing individual cases. We
concluded, however, that the FBI suffered from a strong, and not
unreasonable, perception among employees that a double standard of
discipline exists within the FBI. That perception was fostered by the discipline
imposed in several highly publicized cases – particularly the Ruby Ridge case
and the Potts retirement party case. In those cases, we found that high-level
FBI officials received unduly lenient treatment. In addition, we found that the
perception of a double standard was fostered, in large part, by the existence of
a dual system of discipline that was not abolished until August 2000. We
concluded that the changes made in August 2000 would help to address the
perception of a double standard. In our report, we made eleven
recommendations that we believed would further assist the FBI in moving
towards a fairer and more consistent disciplinary system.

       Just prior to the release of our report, on October 27, 2002, John
Roberts appeared on the television program 60 Minutes and made statements
critical of the FBI's investigation and adjudication of employee misconduct,
suggesting that there was a continuing double standard of discipline in the
FBI. (A transcript of the 60 Minutes broadcast is Attachment 1 to this report.)
The following is a portion of the transcript of the 60 Minutes interview of
Roberts by Ed Bradley:

      BRADLEY: Special Agent John Roberts, a chief of the FBI's
      Internal Affairs Department, agrees. And while he is not permitted
      to discuss the Sibel Edmonds case, for the last 10 years, he has
      been investigating misconduct by FBI employees and says he is
      outraged by how little is ever done about it.

      ROBERTS: I don't know of another person in the FBI who has
      done the internal investigations that I have and has seen what I
      have and that knows what has occurred and what has been
      glossed over and what has, frankly, just disappeared, just
      vaporized, and no one disciplined for it. (Emphasis added).
      BRADLEY: Despite a pledge from FBI Director Robert Mueller to
      overhaul the culture of the FBI in light of 9/11, and encourage
      bureau employees to come forward to report wrongdoing, Roberts
      says that in the rare instances when employees are disciplined, it's
      usually low-level employees like Sibel Edmonds who get punished
      and not their bosses.

      ROBERTS: I think the double standard of discipline will continue
      no matter who comes in, no matter who tries to change. You - -
      you have a certain - - certain group that - - that will continue to
      protect itself. That's just how it is.

      BRADLEY: No matter what happens?

      ROBERTS: I would say no matter what happens.

      BRADLEY: Have you found cases since 9/11 where people were
      involved in misconduct and were not, let alone reprimanded, but
      were even promoted?

      ROBERTS: Oh, yes, absolutely.

      BRADLEY: That's astonishing.

      ROBERTS: Why?

      BRADLEY: Because you - - you would think that after 9/11, that's
      a big slap on the face. 'Hello! This is a wake up call here.'

      ROBERTS: Depends on who you are. If you're in the senior
      executive level, it may not hurt you. You will be promoted.

     The FBI referred Roberts’ allegations in the 60 Minutes broadcast above to
the OIG, and we agreed to investigate the matter.


II.   OIG INVESTIGATION

      At the outset of our investigation, we asked Roberts to identify the cases
he was referring to in his 60 Minutes interview. Roberts told us that his
statement about cases being “glossed over and what has, frankly, just
disappeared, just vaporized, and no one disciplined for it” referred to the Ruby
Ridge investigation and the investigation of voucher fraud by senior executives
related to a retirement party for former FBI Deputy Director Larry Potts. He
stated that he was not referring to actual investigations or cases disappearing,


                                       2
but was speaking of the adjudication phases of those cases. For example,
Roberts said that in the Potts retirement party investigation supervisors
committed voucher fraud, were investigated for voucher fraud, but then were
found in the adjudication stage to have committed lesser offenses. We
thoroughly reviewed the outcomes of both the Ruby Ridge and Potts retirement
party cases in our November 2002 Double Standard Report, and in that report
concluded that there were significant problems in the way the discipline in
those cases was handled.1

      With respect to his allegation that the double standard of discipline
persists, Roberts cited several cases to us. He alleged that some demonstrate a
disparate treatment of Senior Executive Service (SES) and non-SES employees,
and that others were inappropriately decided. He also cited several cases in
which senior-level employees were promoted while under investigation or
shortly after disciplinary action was taken. He asserted that lower-level
employees are usually passed over for promotion under such circumstances
and that the differing treatment is unfair.

      We obtained and reviewed FBI documents relating to the cases that
Roberts alleged were evidence of a continuing double standard and documents
regarding other cases that were brought to our attention during the course of
the investigation. We also interviewed FBI officials involved in the disciplinary
system, including FBI Director Robert Mueller, FBI Deputy Director (DD) Bruce
Gebhardt, and several members of FBI OPR, including former OPR Assistant
Director (AD) Robert Jordan, an OPR Adjudication Unit Chief, an OPR
Investigative Unit Chief, and OPR investigators.

      This report describes the results of our investigation. After a brief
discussion of the FBI disciplinary process, we evaluate the cases that were
raised by Roberts and others as examples of inconsistent disciplinary action for
SES employees and non-SES employees. We also review two cases that
Roberts has alleged were decided inappropriately. In addition, we review the
promotions cases raised by Roberts.2



1 Roberts also asserted that the letter of censure issued to former FBI Assistant Director Van
Harp as a result of the Potts retirement party case and the harsher disciplinary decisions in
two subsequent matters involving agents who provided false information in FBI 302s reveals an
ongoing double standard of discipline. We reviewed the Harp case in our November 2002
Double Standard Report and concluded that Harp did receive unduly lenient treatment. In this
investigation, we reviewed the two subsequent cases Roberts offered for comparison and
concluded that the discipline imposed in those cases was not inappropriate, either on the facts
of those cases or when compared to similar cases in the OPR precedent database. We do not
believe that the fact that the Harp case was improperly, and perhaps unfairly, decided should
be used as an argument to mitigate the discipline in these two cases.

(continued)


                                              3
III.   THE FBI DISCIPLINARY PROCESS

       In July 2001, the Attorney General expanded the jurisdiction of the OIG
to allow it to investigate misconduct throughout the Department of Justice,
including the FBI. As a result, the OIG reviews all allegations of misconduct in
the FBI and determines which ones it will investigate and which ones FBI OPR
should investigate. Normally, the OIG investigates allegations of misconduct
against high-level FBI officials, allegations that would likely result in criminal
prosecution if proved, and allegations that present the FBI with a conflict of
interest or that the OIG believes should be investigated by an entity outside the
FBI.

      FBI OPR is responsible for investigating all other allegations of
misconduct against FBI employees. OPR is comprised of seven units: two
Internal Investigative Units, two Adjudication Units, one Administrative Unit,
one intake unit known as the Initial Processing Office and one Law
Enforcement Ethics Unit (LEEU). The Investigative Units review and
investigate allegations of misconduct and send the results of their
investigations to one of the two Adjudication Units. The Adjudication Units
evaluate the evidence and either recommend or decide upon the disciplinary
action.

      In cases involving SES employees or any employee where the proposed
discipline is a 15-day suspension or more, the Adjudication Unit Chief makes
disciplinary recommendations to the DAD and AD of OPR. The AD reviews the
recommendation and determines the proper punishment. In cases involving
employees at level GS-15 or below, the Adjudicative Unit Chief may impose
non-adverse disciplinary action (sanctions of 14-day suspensions or less)
without approval by the AD or DAD, but that Unit Chief is required to consult
with the other Adjudicative Unit Chief in reaching the disciplinary decision.3

       All disciplinary matters involving a suspension or firing can be appealed
to the Disciplinary Review Board (DRB). The DRB is composed of three SES
members: the AD of the Inspections Division, who serves as the chair of the
board; one member chosen by the appellant; and one member chosen at
random from a list of SES members. Although there are no appeals beyond the
DRB, the Director retains discretionary power to change disciplinary actions

2 In this report, we do not include the names of the persons who were the subjects of the

disciplinary cases because of their privacy interests. We have provided a full report to the FBI
with the names of the subjects included.

3The disciplinary process for some minor infractions, like loss of credentials and misuse of a
Bureau car, has been delegated by OPR to the field offices.



                                                4
concerning all employees except those senior executives whose discipline, by
regulation, must be approved by the Deputy Attorney General.


IV.   INVESTIGATIVE FINDINGS

      A.    Inappropriate Comments Cases

      Two of the OPR cases Roberts raised as evidence of an ongoing double
standard of discipline involve similar conduct by an FBI Special Agent in
Charge (SAC 1) and a Special Agent (SA 1). SAC 1 and SA 1 were both charged
with making inappropriate comments. On June 14, 2002, SAC 1 received non-
disciplinary counseling. On September 24, 2002, SA 1 received a letter of
censure. We reviewed these two cases to see whether the outcomes provided
evidence of a double standard.

       Roberts also raised a third case in which another SAC (SAC 2) received a
letter of censure for inappropriate comments. Roberts’ concern in this case
was that the investigators did not adequately address the issue of SAC 2’s
candor during the interview. We reviewed the investigation in that case as well.

            1.    SAC 1

      In the first case, SAC 1 made several comments in public settings that
were referred for investigation to OPR. He made the first comment at a
luncheon held for a retiring special agent. In a letter to OPR responding to the
allegations, SAC 1 said that at the function he told a joke about golf because
the retiring agent was an avid golfer. SAC 1 reported that in the joke he
described a golfer who had a quick lunch during his golf game:

      When it came time to pay, the golfer put his hand into his pocket
      and pulled out only golf tees. He had left his money at the club
      house. The [waitress], being a country girl... asked what the tees
      were for. The golfer responded, “They are to hold my balls while
      I’m driving.” The [waitress] replied, “Gosh, you rich guys have
      everything.”

SAC 1 added that the joke received significant laughter and no one in
attendance at the luncheon told him that the joke was inappropriate.

       We reviewed the videotape of the retirement luncheon. SAC 1 first did a
skit in which he played “The Amazing Carnac,” a fortuneteller who foresaw the
punch lines to jokes about the special agent and the field office. He then told
several jokes about the special agent, including the following, which are
paraphrased:



                                       5
         •      I attribute (the special agent’s) greatness to 3 things: a great wife,
                a great family, and industrial strength ripple.

         •      I remember (the special agent) was asked what special interest
                groups were and he responded, “People with 6% mortgages.”

         •      (The special agent’s) definition of entrapment is when your wife
                brings you a choice of two magazines to read – Family Circle and
                Playboy. That’s entrapment.

About halfway through the videotape, the video portion was lost and only audio
remained. SAC 1 stated that he was going to conclude the “humorous portion”
of his speech with a joke about golf. He added: “Or at least I think it’s
humorous” and commented that his wife would not attend such functions
because she did not appreciate his humor. SAC 1 then told the joke about the
golf tees.

       The second incident occurred at a “Chili Cook-Off” held by the FBI in FBI
office space at lunchtime. As entertainment for the event, SAC 1 and three
other employees appeared dressed in drag in a parody of the musical group
Spice Girls. In the skit, each “Spice Girl” was introduced and explained the
source of her name. According to the OPR adjudication memorandum, each
answer was “based on sex in some degree.”4 SAC 1 was asked during the skit
what made him qualified to be a Spice Girl and he responded that he was
qualified because he could “suck the chrome off a bumper hitch.” The
audience at the cook-off included both FBI employees and some non-FBI
employees, including two federal judges.

       We reviewed the video of the Chili Cook-Off. During the cook-off, four
men came into the room dressed in drag. The audience reacted with much
laughter. The four were introduced as the Spice Girls. SAC 1 had on a blond
wig and was dressed in a gold lamé top. The master of ceremonies (MC) asked
each man his name and what qualified him to be a Spice Girl. The first man
stated that his name was Jalapeno Spice and that taking a bite of him would
blow your head off. The MC made a joke about him needing to wax more. The
second man stated that his name was Hot Stuff. His reason for being a Spice
Girl was inaudible. He pushed his artificial breasts up at one point and the
MC commented that they could be used as flotation devices. The third man
said his name was Chili Pepper and that he was “touring South of the Border,
if you know what I mean,” when he was discovered. The MC asked if he had
previously worked with livestock and he responded: “You know who I would
like to ride?” Finally, SAC 1 said that his name was Salsa and he was asked if
he was related to the Vikings. He responded: “I like Vikings....” He was asked

4   SAC 1 was the only participant in the skit who was referred to OPR for investigation.



                                                 6
what qualified him to be a Spice Girl and he responded: “Because I can suck
the chrome off a bumper hitch.” The MC stated: “No one leaves here until I get
everyone’s name.”

      The four men then started to dance and lip-sync to a song that was
inaudible on the videotape. The dance included shimmying and hip shaking.
During the dance, someone from the audience stuffed money into the second
man’s top. The show concluded when the music stopped and SAC 1 took off
his wig. He stated that his wife had retained an attorney. He then took a more
serious tone and thanked the people who had arranged the event.

       SAC 1 admitted in his letter to OPR that he said that he was qualified to
be a Spice Girl because he could “suck the chrome off a bumper hitch,” but
stated that the comment was not intended to refer to oral sex but to kissing.
He stated that the comment had received significant laughter and that anyone
who thought it referred to oral sex had his mind “in the gutter.” According to
SAC 1, the two federal judges who were present did not tell him that they were
offended and “personally expressed their delight with the event and requested
to be included at the next Chili Cook-Off.”

       In a third incident, SAC 1 spoke during a briefing regarding a large drug
case. Several law enforcement agencies, including local sheriffs and police,
attended the briefing. According to witnesses, SAC 1 made a comment about
people sharing rooms because of budget limitations and stated that the FBI
was actually “paying people to sleep together.” Witnesses reported that he also
stated, “You’re in [a particular geographic region] now, and a lot of the sheriffs
can’t even read.”

      The final incident occurred when SAC 1 spoke at a retirement luncheon
for an agent. During his speech, SAC 1 made two attempts at humor, both of
which had sexual content. SAC 1 recounted the first joke in his letter to OPR.
He stated that he was trying to make a joke about the retiring agent’s strong
Christian ethics. He stated that he joked that the retiring agent had talked to a
90-year-old man who was entering his church on a Sunday just as the agent
and the congregation were leaving Sunday services. The agent asked if he
could help the older man. SAC 1 wrote:

      The man replied that en route to his summer cottage, he had
      stopped two hitchhikers. The hitchhikers were 23 year old, good
      looking, women. The 90-year-old man related that one thing led to
      another and he ended up spending two days with these women
      engaged in a sexual orgy. [The agent] asked if the man was sorry
      for his sins and was now at church to confess. The man replied,
      “No, I don’t even believe in God.” [The agent] asked, “Why are you
      telling me?” The man replied, “I’m telling any one who will listen.”



                                        7
During his luncheon remarks, SAC 1 also stated that the agent was so strict as
a father that when the Disney movie The Black Hole came out, the agent would
not let his children see it because he thought it was a pornographic movie.

      The OPR adjudication memorandum, dated June 12, 2002, stated that
the audience apparently fell silent after the comments, but that the retiree and
his family did not find the comments personally offensive. The Assistant
Special Agent in Charge (ASAC) of SAC 1’s field office told OPR that two people
who were present at the retirement luncheon contacted him after the luncheon
and told him that they were offended by the comments and that others who
attended also had been offended. According to the ASAC, when he informed
SAC 1 that people had been offended by his remarks, SAC 1 was shocked.
SAC 1 then circulated an e-mail apologizing for his comments and asserting
that he would be more guarded in his comments in the future. The
adjudication memorandum stated that the retiree had told OPR that he found
the administrative inquiry to be “petty” and refused to provide a copy of the
videotape of the luncheon.

       A Unit Chief of one of OPR’s Adjudication Units wrote the OPR
adjudication memorandum. In the memorandum, the Unit Chief summarized
the case and recommended non-disciplinary counseling as punishment. The
Unit Chief wrote that the FBI Manual of Administrative Operations and
Procedures (MAOP) provided the appropriate disciplinary standard. He cited
the sections which require employees to conduct themselves in a manner that
creates and maintains respect for the Department of Justice, to avoid any
activity or situation which could be misinterpreted or misunderstood to the
detriment of the FBI, and to comport one’s self in a way that will not discredit
one’s self or the Bureau.

       Despite the evidence and admissions by SAC 1, the Unit Chief’s
adjudication memorandum concluded that the allegations that SAC 1 had
made inappropriate comments at the two retirement functions and the Chili
Cook-Off were not substantiated. The Unit Chief added, however, that while
his comments did not warrant formal discipline, SAC 1 “did make incautious
remarks susceptible to offensive interpretation.” The memorandum therefore
recommended that SAC 1 “be afforded non-disciplinary counseling to make
every attempt to avoid making similar comments in the future which would
reflect negatively upon him and, by extension, the FBI and its mission.”

       We interviewed the Unit Chief who wrote the OPR adjudication
memorandum in SAC 1’s case about his proposal to give SAC 1 non-
disciplinary counseling. The Unit Chief told us that his finding that the
allegation of inappropriate comments was unsubstantiated meant that he did
not find that the comments themselves were inappropriate. In reaching this
decision, the Unit Chief said that he looked at the totality of the circumstances,
which is his normal practice in cases involving inappropriate behavior. In this


                                        8
case, he said he considered the jokes SAC 1 made, the intent behind the jokes,
the audience, and how the jokes were received.

      The Unit Chief stated that in reaching his decision he considered only
the two retirement luncheons and the Chili Cook-Off.5 The Unit Chief said that
because one of the retirees had told OPR that the matter was petty and refused
to provide the videotape of the retirement luncheon to OPR, the Unit Chief put
that matter “on the backburner” and looked at the other two incidents.

      In reviewing the other two incidents, the Unit Chief stated that, “on
paper” the incidents “sounded really bad.” The Unit Chief said, however, that
he viewed the videotapes of the incidents with other staff from his unit and that
everyone agreed that the jokes did not merit discipline. The Unit Chief stated
that some of the harshest critics in his office viewed the tapes and agreed that
SAC 1’s behavior was not significant. One staff member who viewed the
videotapes with the Unit Chief told us that he did not agree with the Unit Chief
and that he told the Unit Chief that he thought that SAC 1’s comments were
inappropriate. This staff member considered his position to be a difference of
opinion with the Unit Chief, however, and did not think that the Unit Chief was
necessarily incorrect in his assessment of the case.

       The Unit Chief said he believed that it was significant that SAC 1’s
comments were made in social situations. He said that the Chili Cook-Off was
a lighthearted, voluntary event; and that the “roasts” of the retirees at the
retirement luncheons were in keeping with the division’s past practices. The
Unit Chief also said that he looked at each comment individually and found
that none of them rose to the level of being “inappropriate.” He said the fact
that SAC 1 made such comments on three different occasions did not change
his opinion of whether any of the individual comments was inappropriate.

      The Unit Chief said that John Roberts “lobbied” him on the SAC 1 case
and argued that discipline should be imposed. The Unit Chief said that he and
Roberts simply disagreed about the matter.

     According to a handwritten note on the OPR adjudication memorandum,
Deputy Director Gebhardt called SAC 1 on June 14, 2002, and counseled him


5 The Unit Chief told us that he did not consider the comments SAC 1 made at the briefing on

the drug case because SAC 1 had not been given notice that he was under investigation for
those comments. The Unit Chief stated that under FBI procedures, SAC 1 could not be
punished unless he was given notice that he was under investigation for those comments. The
Unit Chief stated that he could have given notice to SAC 1 and asked the investigative unit to
look into those comments, but he did not think they rose to the level requiring an investigation.
The Unit Chief also stated that when the investigative unit learned of the comments, it could
have provided notice to SAC 1 and conducted an investigation, but chose not to do so.



                                               9
about his comments. The note states that Gebhardt “advised him to stop” and
to “ensure professional” behavior in the future.

      Ten months later, on April 15, 2003, SAC 1 sat on a Career Board that
promoted the Unit Chief to an ASAC position. The Unit Chief told the OIG that
he did not know that SAC 1 was on his Career Board until we told him, and
that at the time of the disciplinary decision in SAC 1’s case, he had not yet
made up his mind that he was going to seek promotion. The Unit Chief said
that he did not put his name on the list for promotion to an ASAC position
until November 2002, 5 months after issuing his adjudication memorandum.

            2.    SA 1

       In the second case referred to by Roberts as similar, SA 1 made an
inappropriate remark during a presentation on evidence that he gave as part
of a “Back to Basics” class. During that presentation, SA 1 stated: “Did you all
hear what happened to Oprah coming back from [sic] Chicago from Paris? She
got stopped at Customs and they lifted up her skirt and found forty pounds of
crack.”

       During the OPR inquiry, SA 1’s SAC provided OPR with a memorandum
responding to OPR’s request for information relevant to the disciplinary
decision. The SAC stated in the memorandum that SA 1’s telling of the “off-
color” joke had not diminished management’s confidence in his ability to
perform his assigned duties, that SA 1 had a good performance record, and
that he had not been disciplined before. The SAC added that the matter was
not known outside of the FBI and had not negatively impacted the reputation of
the FBI. He also stated that the feelings of the office employees were mixed:
many felt that the comment was inappropriate but did not rise to the level of an
OPR inquiry, although one employee reported being “slightly offended.” The
SAC also reported that SA 1 acknowledged that his comment was inappropriate
and stated that he regretted making it. In his own defense, SA 1 raised the
issue that the FBI has numerous training videos which contain off-color
remarks by lecturers. The SAC concluded that he believed that SA 1 was
“totally rehabilitated.”

       On September 24, 2002, the adjudicator in SA 1’s case issued a letter of
censure to SA 1. The letter stated that nearly half of the audience in the
training class was female, and that the joke was inappropriate because of its
“sexual coarseness and consequent and predictable capacity to appall others.”
The letter also stated that “crude, sexual humor has no place in any Bureau
activity.”

       On October 17, 2002, John Roberts called the SA 1 and SAC 1 cases to
OPR AD Robert Jordan’s attention. In a routing slip to Jordan accompanying
the letter of censure in the SA 1 case, Roberts wrote: “Bob, I think we are


                                      10
causing OPR unnecessary problems. If you check the [SAC 1] case you will
find his actions more egregious than the attached SA’s actions. [SAC 1] gets
counseling and the SA gets a letter. It just does not make sense and we are
leaving OPR open to criticism. We have to fix this. Your thoughts?”

      Jordan did not take any action regarding the SAC 1 and SA 1 cases in
response to Roberts’ note. Jordan told the OIG that he recalled the routing slip
Roberts sent him about the cases. Jordan said that by the time the routing
slip was delivered, the SA 1 case had already been completed. He also stated
that he believed SA 1’s comments were more egregious than SAC 1’s. He
asserted that OPR adjudicates over 700 cases a year, and that fine differences
in the facts of each case can sway the outcomes.

       The Unit Chief who wrote the adjudication memorandum in SAC 1’s case
also told us that he believed SA 1’s comments were more serious than SAC 1’s.
That Unit Chief said that he had discussed the SA 1 case prior to the final
decision with the Adjudication Unit Chief who handled it. The Unit Chief in
SAC 1’s case told us that with regard to SA 1’s case, he thought it was
significant that SA 1 was acting as an instructor in an official training
situation. He said he also believed that the joke was extremely offensive and
racist, and that he believed that it was a slur against a prominent African
American. He added that it also referred to the racial stereotype that African
Americans are largely involved in the use of “crack” cocaine.

            3.    SAC 2

      In a third case raised by Roberts, OPR investigated allegations of
inappropriate comments by SAC 2. Several witnesses told OPR that SAC 2 had
made insensitive and unprofessional comments during a SWAT operation in
March 2000. Specifically, witnesses stated that SAC 2 made a comment about
“eating some local pussy” in the context of an upcoming visit he was planning
to an FBI Resident Agency (RA). SAC 2 admitted to OPR that he used the term
“pussy,” but described the location and context of his remark differently.
SAC 2 said that he used the word “pussy” at a SWAT firearms session that he
attended in the summer of 2000, after the RA visit, in the context of recounting
a conversation he had with the Senior Resident Agent (SRA) at the RA.
According to SAC 2, he said that he had just completed a successful trip to the
RA and that the SRA had taken care of him by lining up liaison contacts.
SAC 2 said that the SRA asked him “if there was anything else he could do for
me and jokingly I replied Pussy.”

       Witnesses also told OPR that SAC 2 had made a sexual comment about a
female support employee while doing sexually suggestive pushups during a
training operation. SAC 2 initially denied that he ever commented about the
female employee or made sexual movements while executing his pushups. He
later clarified his statement to admit that he may have made a joke that


                                      11
connected sex and pushups while he was executing pushups on another
occasion. He also stated that he recalled saying that the female support
employee was attractive, but that he did not make that statement in connection
with any pushups.

       OPR found that the evidence regarding these allegations demonstrated
that “there was some precipitating acts of unprofessional and sexually
suggestive conduct on [SAC 2’s] part which caused substantial comment and
criticism among your subordinates.” In addition, based on the information
provided by SAC 2, OPR found that he had utilized inappropriate language and
acted in an unprofessional manner on two additional occasions. SAC 2 told
OPR that he had commented on his secretary’s breasts, possibly referring to
them as “tits,” to a fellow employee “in the context of remarking that she is an
attractive woman for her age.” He also told OPR that he had told another
secretary that his secretary would be shocked if they had sex in his office.
SAC 2 stated that he realized that both comments were inappropriate and that
he regretted them.

      OPR concluded that SAC 2 had engaged in unprofessional conduct by
using crude and sexually offensive language on several occasions and that this
behavior was inconsistent with expectations of a manager in his position. The
adjudication memorandum stated:

       It is obvious that [SAC 2] has acted in an unprofessional manner
       on- and off-duty. A particular concern is his lack of self-control to
       behave in a manner befitting of an individual placed in an FBI
       executive position. However, based upon the precedent, [SAC 2’s]
       behavior does not rise to the level of a fifteen calendar day
       suspension, without pay.6 Therefore, it is recommended that [SAC
       2] be issued a letter of censure and attend sensitivity training.

              4.     FBI Precedent Database

       The FBI keeps a precedent database for disciplinary matters. This
database provides a synopsis of the facts of each case and the disciplinary
outcome in the case. The cases are organized by allegation. When we reviewed
the database, it contained 161 cases involving general allegations of
unprofessional conduct on the part of 184 employees, with penalties ranging
from no action to dismissal. In the cases involving inappropriate comments,
letters of censure were the most common penalty. For example, letters of
censure were issued in the following matters:

6 Title 5 dictates that an agency may not take a suspension action of 14 calendar days or less
against an SES employee. Thus, there were no disciplinary options available in the SAC 2 case
greater than a letter of censure, but less than a 15-day suspension.



                                             12
      •     an agent made a profane comment about a mayor to the mayor’s
            aide;

      •     an agent made unflattering remarks on a bus about a racial group
            which were overheard by an agent of that racial group;

      •     a Supervisory Special Agent (SSA) made an inappropriate joke,
            which included a reference to pubic hair, at an in-service awards
            dinner;

      •     a support employee used profanity in the presence of other
            employees, causing a disruption in the office;

      •     a support employee used vulgar language in speaking to his
            supervisor;

      •     an agent contacted a co-worker and left an unprofessional and
            insensitive message when he learned that the co-worker was able
            to avoid an undesirable temporary duty assignment on the basis of
            a medical condition;

      •     an agent repeated to co-workers a private conversation he had with
            a co-worker regarding that co-worker’s personal life and sexual
            orientation; and

      •     an agent made a comment to a female agent that he hoped she was
            not getting a “boob job” after she mentioned that she had minor
            surgery scheduled; the agent also searched through the personal
            items of another agent.

The database contained far fewer instances of counseling or oral reprimand for
inappropriate comments. For example:

      •     Two support employees repeated a rumor about a fellow employee
            that the employee had slept with a local police officer on the first
            and second dates, had oral sex, and was “wild.”

      •     A supervisory support employee lifted his shirt to allow exposure of
            his underclothes in an “ill-conceived attempt at levity toward a
            subordinate employee.” There was no evidence that the action was
            sexually suggestive.

      •     An agent engaged in a conversation with a prisoner. Although it
            was found that the agent’s comments were not meant to have been


                                       13
              racially insensitive, OPR found that the agent should have realized
              the risks inherent in extraneous conversation with a prisoner and
              avoided such contact.

We found suspensions in only a few such cases. For example:

       •      An ASAC was suspended for 14 days for using crude and sexist
              terms in the workplace, actions that were found to have
              undermined the office’s command structure; and

       •      A support employee received a 3-day suspension for making 25
              successive telephone calls to an employee and leaving messages
              that were replete with abusive and vulgar language.

              5.      OIG Analysis

                      a.     The SAC 1 and SA 1 Cases

       We found the differing outcomes in the SAC 1 and SA 1 cases to be of
concern. We recognize that several factors make an exact comparison between
the two difficult. First, there were different decision makers in the SA 1 and
SAC 1 cases. In reviewing specific allegations of misconduct, an adjudicator
necessarily will bring his or her own sensibilities and opinions to bear, and
different decision makers may perceive mitigating circumstances differently.
The precedent database is somewhat helpful to ensure that decisions are in
keeping with other similar cases, but each case has its own mitigating and
aggravating factors.7

       Second, while the facts of both cases involved similar inappropriate
behavior - jokes with crude sexual content - the circumstances were not
identical. The Unit Chief who adjudicated SAC 1’s case stated that he found it
significant that SAC 1’s behavior occurred in voluntary social situations. He
argued that SAC 1 made his jokes during events in which he was expected to
raise morale or honor retirees by making funny and perhaps sarcastic
comments, while SA 1’s statement was made during a mandatory all-office
training course.

      Third, the difference between the outcomes of the two cases (non-
disciplinary counseling versus a letter of censure) is not great and neither
outcome is inconsistent with the precedent database.


7 The precedent database is a rough guide at best. Most of the conduct in the inappropriate
behavior cases in the database is described in conclusory terms, such as “crude,” “vulgar,” or
“unprofessional.”



                                              14
       Nevertheless, we believe that SAC 1’s repeated instances of offensive
comments weighed in favor of disciplinary action, especially given his
leadership position in the FBI. We also find it difficult to reconcile the written
admonition to SA 1 that “crude, sexual humor has no place in any Bureau
activity,” with the decision that SAC 1’s comments – especially the crude oral
sex joke he made in FBI offices in the presence of lower-level FBI employees
and federal judges – were not inappropriate and did not merit discipline.

      Finally, we also were troubled by SAC 1’s participation in the Career
Board that promoted the OPR Adjudication Unit Chief who handled his
disciplinary case just 10 months after that Unit Chief recommended against
discipline of SAC 1. We believe that the conflict of interest and appearance of
impropriety inherent in allowing the subject of an OPR investigation to vote on
the promotion of the OPR adjudicator who decided his case should have
precluded SAC 1’s participation in the Unit Chief’s Career Board.

                   b.    The SAC 2 Case and the Candor Issue

        Roberts told us that he believes that OPR failed to address a “candor
issue” in the SAC 2 case. As described above, the OPR report reflects that
SAC 2 admitted using the term “pussy,” although he described the context of
his use of that term differently than did other witnesses. In addition, SAC 2
initially denied that he ever commented about a female support employee or
made sexual movements while executing his pushups. He later clarified his
statement to admit that he may have made a joke that connected sex and
pushups while he was executing pushups. He also stated that he recalled
saying that the female support employee in question was attractive, but that he
did not make that statement in connection with any pushups.

       OPR did not decide whether SAC 2 had been untruthful in his responses
regarding those comments. The OPR adjudication memorandum stated that
the witnesses to the pushups comment differed regarding the time frame and
details of that incident. The memorandum stated that it was unnecessary to
determine if SAC 2 had made the exact comments alleged because although the
evidence was in conflict, it established that SAC 2 had acted in an
unprofessional manner. The report stated that SAC 2 admitted to
unprofessional conduct on two other occasions and concluded that his efforts
to be “one of the boys” were common enough that he might not recall the
details of each such event.

      Roberts asserted that the adjudicator simply “sidestepped” the candor
issue. We agree. Several witnesses unequivocally stated that SAC 2 made a
comment about a specific female support employee while doing sexually
suggestive pushups. SAC 2 ultimately denied using the support employee’s
name in connection with the pushups, but gave shifting explanations of the
incident. Only one witness, who described himself as the person physically


                                        15
closest to SAC 2 at the time of the alleged remark, stated that SAC 2 did not
make the remark. Under these circumstances, we believe the adjudicator
should have addressed the issue of whether SAC 2 lied to OPR investigators.

      B.    Candor Issues Cases

      Two cases brought to our attention by other FBI employees during the
course of this investigation also involve candor issues, one by a Deputy
Assistant Director (DAD 1) and another by a Supervisory Special Agent (SSA 1).
Both DAD 1 and SSA 1 were found, among other things, to have been less than
candid during their OPR interviews. SSA 1 was dismissed from the FBI for his
misconduct. OPR initially proposed that DAD 1 be dismissed, but changed the
sanction to a suspension and reduction in grade.

            1.    SSA 1

       OPR investigated an allegation that SSA 1 directed subordinates to enter
false, misleading, or erroneous information in a report that was to be
submitted to Congress. The specific information at issue was an explanation of
why the FBI had failed to spend $10 million appropriated to it by Congress to
purchase equipment for state and local agencies. Two of SSA 1’s subordinates
alleged that he directed them to state that the money had not been spent
because the states had failed to complete their law enforcement plans. In fact,
the money had not been spent because FBI officials were unaware of the
appropriation until the issue arose during the preparation of the report.

       In a signed sworn statement, SSA 1 stated that he did not tell anyone to
falsify a document. On June 20, 2001, SSA 1 submitted to a polygraph
examination during which he was asked the following questions and gave the
following answers:

      QUESTION: Did you instruct [employee #1] or [employee #2] to
      falsify that report?

      ANSWER:      No

      QUESTION: Did you know that linking the [FBI’s] failure to spend
      the $10 million to a lack of state plans would be false?

      ANSWER:      No

The polygraph examiner concluded that SSA 1 was deceptive on both of these
questions. During the post-test interview, SSA 1 ultimately stated that he
should have answered yes to the second question.




                                      16
      OPR found that SSA 1 directed his subordinates to incorporate false
statements in a report to Congress and that he was not truthful in his signed
sworn statement to OPR investigators. Citing FBI policy, including the
Director’s January 3, 1994, so-called “bright-line” memorandum giving
employees notice that they could expect to be dismissed for lying under oath in
an administrative inquiry, SSA 1 was dismissed from the FBI.

              2. DAD 1

       The subject matter of OPR’s investigation of DAD 1 included allegations
that he had sexual relationships with two subordinate employees, showed
favoritism toward one of those employees, and had sexual contact with the
other on government premises; that he contacted witnesses in an attempt to
obstruct the OPR investigation; and that he acted improperly by allowing
prostitutes to accompany him from a nightclub to his hotel during a training
trip.

      During the OPR investigation, DAD 1 made three signed sworn
statements that formed the basis of a finding that he failed to be forthright with
OPR investigators regarding the allegation that he had sex with one of his
subordinates on government premises. In his first statement, dated
October 22, 2001, DAD 1 stated that he had a personal relationship with a
woman who was a police officer (PO) of another law enforcement agency, but
over whom he had some supervisory responsibilities. In the second statement,
dated November 30, 2001, DAD 1 stated that the relationship was physical, but
denied that he had sexual encounters with her or anyone on government-
owned premises. Finally, in his third statement on December 14, 2001, DAD 1
admitted having sexual encounters with the PO in office space that was at least
partially funded by the government.

      Based on the OPR investigation, on February 3, 2003, AD Jordan sent
DAD 1 a letter proposing his dismissal from the FBI. The letter stated that the
investigation had substantiated the following allegations:

       •      that DAD 1 had an inappropriate personal relationship with his
              Administrative Assistant (AA), and that he had exhibited favoritism
              toward the AA, and created the appearance of favoritism, by
              nominating her for cash awards;8

8 The OPR file reveals that the AA had been hired as DAD 1’s Administrative Assistant in

October 1995. She moved into the basement apartment of DAD 1’s residence in January 1996.
That prompted an OPR investigation, which was resolved without disciplinary action. DAD 1
and his wife divorced in 1999, the AA resigned her position in July 2000, and she and DAD 1
were married in June 2001. During the OPR investigation, DAD 1 admitted having a physical
relationship with the AA, but stated that it began after he and his wife separated in the
summer of 1999. Several witnesses, however, stated that the inappropriate relationship
(continued)


                                            17
       •       that DAD 1 was involved in an inappropriate personal relationship
               with the PO, and that he had engaged in inappropriate conduct on
               government-funded property by having sexual encounters with the
               PO in government-funded office space;

       •       that DAD 1 had contacted two witnesses during the OPR
               investigation, including the PO, in at attempt to obstruct the
               investigation;

       •       that DAD 1 had failed to be forthright and cooperative about his
               inappropriate conduct with the PO on government-funded
               premises; and

       •       that DAD 1 created the appearance of impropriety when he caused
               a prostitute to accompany him from a nightclub to his hotel in a
               police vehicle belonging to a foreign country.

      DAD 1 responded to his proposed dismissal in writing and made an oral
presentation to OPR in Jordan’s office.9 Jordan, the Adjudication Unit Chief
assigned to the case, and two members of that Unit Chief’s Adjudication Unit
attended the presentation, which was audiotaped. OPR conducted no
additional investigation on the DAD 1 case after the presentation. After the
presentation, Jordan reduced DAD 1’s punishment from dismissal to a 45-day
suspension without pay and a demotion to a grade GS-13 Special Agent.

      In a letter to DAD 1 dated May 6, 2003, Jordan made the following
changes to his previous findings. First, he found that although DAD 1 was
involved in a personal relationship with the AA, “which created the appearance
of impropriety,” it did not result in acts of favoritism. Second, Jordan found
that the allegations that DAD 1 contacted two witnesses in an attempt to
obstruct an OPR investigation, and that he created the appearance of
impropriety when he knowingly allowed prostitutes to accompany him from a
nightclub to his hotel in a foreign country’s police vehicle, were
unsubstantiated.



started before that. One witness testified that the AA told her that she had been dating DAD 1
for 7 years.
9 In FBI disciplinary cases involving a potential punishment of a 15-day suspension or more,

subjects have the right to review with their attorneys a redacted version of the OPR file and to
respond both in writing and orally. If the proposed adverse action is anything short of
dismissal, the oral presentation is made telephonically to the AD and other OPR employees,
usually including the adjudicator. If the proposed discipline is dismissal, the subject and his
attorney may make a presentation to OPR in person.



                                               18
       In his May 6 letter, Jordan suggested the change in the favoritism finding
was premised on an assertion by DAD 1’s attorney that the responsibility for
issuing awards was “shared.” In his February 3 letter proposing DAD 1’s
dismissal, however, Jordan stated that during the time DAD 1 supervised his
AA, DAD 1 nominated her for, and she received, several cash awards.10 The
February 3 letter also stated that there was no evidence that the person
DAD 1 claimed shared the responsibility for issuing the awards had
participated in the selection of the AA for the cash awards. Indeed, several
witnesses stated that DAD 1 alone made that determination. Jordan told us
that he did not remember why he changed this finding and suggested that we
listen to the tape recording of the presentation. We reviewed the recording of
the presentation provided to us by the FBI. The portion dealing with the
favoritism issue appears to have been erased.11

      Jordan also told us he did not remember why he had changed his finding
on the obstruction of justice allegation and that we would have to listen to the
tape of DAD 1’s presentation to find out. According to his February 3 letter,
Jordan’s initial finding that DAD 1 “attempted to either influence or obtain
information from two OPR witnesses” was based on the testimony of the PO
and another witness. Both witnesses testified that DAD 1 had called them
shortly after they were interviewed by OPR investigators – and before DAD 1
was interviewed – and asked them what he should expect to be asked in the
investigation. The witnesses reported the contacts to OPR, but then refused to
make further written or oral statements about the conversations. One of the
witnesses stated that she and the other witness understood from DAD 1’s calls
that he knew about the investigation and the identity of witnesses. She stated
that they would not make any additional statements in order to protect their
careers. DAD 1 admitted to OPR that he contacted the witnesses. He said that
he “recall[ed] some conversation about the OPR investigation,” but denied
asking them what he should expect to be questioned about. DAD 1 claimed
that he called both women concerning an upcoming conference and that both
women told him that they were upset about his relationship with the AA. DAD
1 stated that with regard to the OPR investigation, he told the women “not to
tell me anything, not [to] listen to rumors, and [to] just tell the truth.”

     In the February 3 letter, Jordan concluded that DAD 1 was apparently
attempting to find out if the PO had admitted their sexual relationship to OPR;

10 The OPR file reveals that the AA received over twice as much in award monies as the three
other awardees combined during the relevant period of time.
11 In the relevant portion of the tape, DAD 1’s attorney states: “I think with regard to

favoritism, the important thing is there is a.…” At that point the recording is interrupted by
other voices. After some unintelligible conversation, a female voice asks: “What did you do,
did you erase my tape?” A male voice responds: “You can’t erase it.” There is some other
unintelligible conversation and then the tape of the hearing resumes. Less than a minute and
a half of the recording appears to have been erased.



                                              19
and that his persistent efforts to talk to the witnesses had in fact chilled their
further cooperation in the investigation. The recording of the presentation
reveals that DAD 1’s attorney denied these charges, saying only that both
women were not credible and that his client was credible. Jordan’s May 6,
2003, letter does not explain why the finding was reversed.

       Nor does the May 6 letter explain why the charge of creating the
appearance of impropriety was dropped. These allegations centered around a
trip to a nightclub DAD 1 and other witnesses took while in another city for
training. According to four other FBI employees at the nightclub, several
prostitutes at the nightclub propositioned DAD 1 and some of the other men.
When the men left the bar, two of the women from the club asked for a ride to
the hotel. According to DAD 1 and one of the witnesses who was in the car
with DAD 1, the driver of the car, a police official from a foreign country,
allowed them in. One of the witnesses said it was “obvious” the women were
seeking a ride to the hotel so they could “hustle business” there. In his
February 3 letter, Jordan stated that as the senior FBI official on the scene,
DAD 1 should have prevented the women from entering the car and that his
failure to do so created the appearance of impropriety by giving the impression
that FBI employees were associating with prostitutes. Jordan told the OIG that
he changed the finding because DAD 1 was a stranger in that city and had not
been in that city or that club before. Although Jordan told the OIG that the
nightclub was a notorious hangout for prostitutes, and although other FBI
witnesses stated it was apparent that the women were prostitutes, Jordan
stated that he was not personally sure the women were prostitutes.

       We asked Jordan why DAD 1, unlike SSA 1, was given a sanction short
of dismissal although his misconduct included a candor violation. As
discussed earlier, DAD 1 was found to have withheld information in his first
statement to OPR about the sexual nature of his relationship with the PO, and
to have falsely denied in his second statement that he had sexual contact with
her on government premises. Jordan said that he did not think the DAD 1 and
SSA 1 cases were similar. Jordan said that SSA 1 directed two subordinates to
lie to Congress while DAD 1 lied about the physical location of his sexual
activities. The Adjudication Unit Chief also said there was a “clear difference”
between these cases. He described SSA 1’s behavior as “lacking candor,” while
he described DAD 1’s behavior as a “failure to be forthright.” The Unit Chief
said the difference between these two allegations is that intent is not necessary
to substantiate an allegation of failure to be forthright and therefore it is not as
serious as a finding of lack of candor.

       Several OPR employees told us that that the Adjudication Unit Chief
appeared to take a personal interest in the outcome of the DAD 1 case and that
he engaged in detailed negotiations with DAD 1’s attorneys in an attempt to
settle the case. These witnesses told us that OPR does not usually negotiate
settlements of disciplinary cases. Witnesses also told us that a member of the


                                        20
SES who is a former supervisor of DAD 1 is a friend of both DAD 1 and the
Unit Chief and that she spoke to the Unit Chief on DAD 1’s behalf. The SES
employee was DAD 1’s supervisor at the time of his alleged misconduct and it
is OPR practice for supervisors to provide their views regarding the appropriate
disciplinary outcome of OPR investigations of their subordinates. Accordingly,
the SES employee would have been expected to provide her views regarding the
disciplinary outcome in DAD 1’s case.

       The Adjudication Unit Chief denied that he took a special interest in this
case because of DAD 1’s rank or friendship with the SES employee. The Unit
Chief said that he understood from a discussion he had with Jordan shortly
after Jordan became the AD of OPR that he was permitted to engage in
settlement negotiations in order to reduce the backlog of cases in OPR. Jordan
told the OIG that he admonished the Unit Chief for attempting to negotiate a
settlement in the DAD 1 case and told him not to do it again. Jordan said that
the disciplinary decision was his to make, not the Adjudication Unit Chief’s.
Jordan denied that DAD 1’s rank or friendships influenced his decision in the
case. He also said that he did not discuss the case with the SES employee.

      DAD 1 resigned from the FBI on September 2, 2003, while his appeal to
the Disciplinary Review Board (DRB) was pending. Because DAD 1 is no longer
an FBI employee, his appeal is considered moot and will not be decided by the
DRB.

            3. OIG Analysis

      We were troubled by the outcome in the DAD 1 case. First, the initial
proposal to dismiss DAD 1 appears to have been justified by the OPR
investigation. Jordan was largely unable to explain his rationale for changing
the disposition of the case, and the reasons he did offer are not persuasive. As
described above, the changes appear to be based largely on representations
from DAD 1’s counsel that are not supported by the evidence developed in the
OPR investigation.

        Second, it is difficult to reconcile the treatment of the candor violations
in the DAD 1 and SSA 1 cases. According to a memorandum from the Director
dated January 3, 1994, known as the “bright-line policy,” FBI employees
should expect to be dismissed for lying under oath in an administrative
inquiry. According to an internal Inspection Division memorandum dated
February 16, 2001, the bright line policy requires that “[a]s a general rule, an
employee who lies during an administrative inquiry should be dismissed if the
lie is (1) made under oath; (2) following notice; (3) documented in a [signed
sworn statement]; (4) intentional; and (5) material.” That memorandum also
states that approximately 86 percent of employees charged with candor
violations in the last 5 years whose lies met the above criteria were dismissed.
This policy was cited in the OPR letter proposing SSA 1’s dismissal.


                                        21
      Jordan’s explanation that DAD 1’s lies were different from SSA 1’s
because they were merely about the physical location of his activities is not
persuasive: the physical location of DAD 1’s sexual activities with the PO was
material to the allegation that he misused government premises. Moreover,
DAD 1 also initially understated the nature of his relationship with the PO,
which was material to the charge that his relationship with her was
inappropriate. The Adjudication Unit Chief’s explanation that DAD 1’s conduct
was not intentional is also unpersuasive in light of DAD 1’s admission, cited in
the February 3 letter, that he understood that he was being asked whether he
had sexual contact with the PO on government premises.

      These cases were brought to our attention by several FBI employees who
questioned their different outcomes. These employees also cited the highly
unusual settlement negotiations in the DAD 1 case and the SES employee’s
comments on his behalf as cause for concern about the fairness of the
outcome. Given the lack of a persuasive explanation for the reversal of the
proposed dismissal of DAD 1 and the treatment of the candor issues in his
case, we believe that the different outcomes suggest that DAD 1 was given
preferential treatment.

       C.     Allegations of Improper Adjudication

              1.     SSA 2

       Roberts raised concerns about OPR’s adjudication of a case involving
another Supervisory Special Agent (SSA 2). In that case, OPR considered
allegations that SSA 2 had filed a false, misleading, or erroneous travel
voucher, and that he had misused his government credit card for personal
purchases. OPR sustained the misuse of credit card allegation and issued SSA
2 a letter of censure. OPR found that the allegation regarding the false,
misleading, or erroneous travel voucher was unsubstantiated. Roberts
questioned this finding. He alleged that it was improperly based on a desire to
avoid creating Giglio (impeachment) problems for SSA 2.12

      The OPR file reveals that in June 2001 SSA 2 traveled from Athens,
Greece, to London, England, on official business. His family traveled with him.
While in London, SSA 2 and his family stayed with friends. Upon his return,
SSA 2 claimed the flat rate lodging allowance – $211 per night – for himself for



12 The term “Giglio” refers to the decision of the United States Supreme Court in Giglio v.
United States, 405 U.S. 150 (1972), one of a line of cases governing the prosecution’s duty
under the U.S. Constitution to disclose to the defense in criminal cases potential impeachment
information concerning government witnesses.



                                             22
five nights, a practice known as “flatlining.” This was the basis of the false
voucher claim.

       Before 1997, FBI policy allowed agents to claim flat rate lodging
allowance expenses while on government travel, even when they stayed with
friends or relatives. That policy was eliminated in June 1997 and the change
was communicated to employees by a memorandum sent to all divisions.
SSA 2 told the OPR investigators that he was unaware of the policy change.
After OPR initiated its investigation, SSA 2 reimbursed the FBI for the London
trip and for two other trips he voluntarily identified as trips for which he had
claimed “flatline” expenses, discussed voucher reporting requirements with his
staff, and disseminated copies of the FBI’s Travel Voucher Preparation Guide to
his staff.

       A Unit Chief from the Commercial Payments Unit told OPR that he had
briefed SSA 2 about voucher matters in August 2000 and told him that lodging
expenses could not be claimed if they had not in fact been incurred. The other
person present at the meeting testified that she did not recall whether the Unit
Chief addressed lodging expenses in that briefing. Because of the conflict
between his and the Unit Chief’s testimony, SSA 2 took a voluntary polygraph
examination. During the examination, he asserted that he was unaware of the
policy change. The polygrapher concluded that SSA 2 had not indicated
deception in his answer to that question.

       The Adjudication Unit concluded that the false voucher allegation was
unsubstantiated. It concluded that SSA 2 had violated FBI policy, but that his
violation was inadvertent and he did not attempt to defraud the government.
Accordingly, because the error was inadvertent and because SSA 2 had
voluntarily taken steps to correct the error, the Adjudication Unit
recommended against administrative action on that issue.

      Roberts told us that he raised concerns about the outcome of the SSA 2
case with the Adjudication Unit Chief assigned to the case and with Jordan.
Roberts told us that he asked the Unit Chief why he had found the false
voucher allegation unsubstantiated and the Unit Chief responded that he did
not want to create a Giglio problem for SSA 2.

      The Unit Chief told us that he, Jordan, Roberts, and others met about
the SSA 2 case after it was decided. The Unit Chief said he was asked to
explain his rationale in deciding the case and he said he considered the
“reasonableness” of SSA 2’s actions.13 He stated that SSA 2 had the original


13 The Adjudication Unit Chief said that Jordan agreed that an assessment of reasonableness
is necessary, but that Roberts did not. The Unit Chief stated that Roberts tends to “view things
(continued)


                                              23
policy memorandum that approved the practice of flatlining and that he passed
a polygraph on the issue whether he knew about the change in policy. Under
these circumstances, the Unit Chief stated that he believed SSA 2 had met his
burden of proving that he was unaware of the change in policy and therefore
did not knowingly commit misconduct.

     The precedent database reveals that OPR has considered intent in other
voucher fraud cases, including one case of alleged improper flatlining.

       We asked the Unit Chief if he discussed with Roberts and Jordan
whether a negative finding would have created a Giglio problem for SSA 2. The
Unit Chief said he could not recall discussing that issue. He added that the
creation of a Giglio problem is the “last fact on his mind” when he makes a
disciplinary decision. He also stated, however, that Giglio concerns are
considered in crafting letters of censure. He said OPR generally does not
include unsubstantiated allegations in letters of censure. Accordingly, the
letter of censure to SSA 2 for misuse of his government credit card does not
recount the voucher fraud allegations.14 Jordan also said he did not recall
discussing with the Unit Chief and Roberts whether a negative finding could
create a Giglio problem for SSA 2. Jordan stated, “we don’t think that way in
OPR.”

      Based on the foregoing, we found insufficient evidence to conclude that
the decision regarding the false voucher allegation was motivated by a desire to
avoid a Giglio problem for SSA 2 rather than by the evidence that SSA 2 did not
intentionally violate the flatlining policy.

              2.      SAC 3 and ASAC 1 Preliminary Inquiry

       OPR opened a preliminary inquiry into an agent’s allegation that he was
passed over for promotion because of improper conduct by his SAC (SAC 3),
and ASAC (ASAC 1). The complainant had been ranked number one by the
local Career Board for a squad supervisor position, but SAC 3 recommended to
the FBI headquarters Career Board that the number two-ranked candidate be
selected. In making that recommendation, SAC 3 stated that the complainant
had not actively participated in investigations since his arrival in the office.
SAC 3 also stated that the complainant had originally been assigned to the
squad that the successful candidate would supervise, but that he had


in black and white,” and believes that absolute rules need to be enforced. The Unit Chief
stated that in contrast he sees things in “shades of gray.”
14 The letter was issued because SSA 2 improperly used his credit card to purchase his

family’s tickets to London. The family’s tickets were purchased at the commercial, not
government, rate, and SSA 2 asserted that he mistakenly paid for them with the same credit
card he used to purchase his own ticket.



                                              24
requested a reassignment due to differences in investigative opinions with the
squad. SAC 3 concluded that the complainant lacked the credibility to lead
that squad.

       The complainant asserted that SAC 3 provided inaccurate information to
the Career Board, and that he received the information from ASAC 1 who
wanted his “friend and protégé” the second-ranked candidate, to get the
promotion. The complainant asserted that the conduct of SAC 3 and ASAC 1
violated the FBI’s “Personal Relationships Policy,” which states, among other
things, that an FBI employee “who votes in a career board or whose personal
and substantial participation in any organizational decision is provably based
upon friendship, hostility, a desire to do someone a favor, or on any reason
other than the candidates’ ability, knowledge, and skills... may be subject to
discipline.”

       OPR closed the preliminary inquiry after concluding that the FBI’s
Personal Relationships Policy had not been violated. Roberts questioned
whether the case should have been closed absent further investigation of the
complainant’s allegations that SAC 3 gave false information to the Career
Board. Roberts stated that he had recused himself from the matter because he
had attended new agent training with the complainant. He suggested that we
talk to another OPR employee because he thought the other OPR employee had
concerns about the matter. That employee told us that he thought the Career
Board process is faulty and unduly subjective. He stated that he did not,
however, have a concern about closing the OPR inquiry because he did not
view the facts as raising a potential OPR violation.

       The OPR file reveals that SAC 3’s recommendation to the Career Board
was an evaluation of the respective merits and performance of the complainant
and the candidate who received the position. The complainant’s allegations
indicate that he disagreed with SAC 3’s evaluation of his performance and
believed he was the more qualified candidate. We do not believe it was
unreasonable for OPR to close this matter after determining it did not raise a
violation of the personal relationships policy.

      D.    Promotions

      Roberts alleged that several SES employees were recently promoted while
they were under investigation by OPR or shortly after they were disciplined. He
suggested that we compare those cases to that of a lower-level employee who
was not promoted because of a pending disciplinary matter. Roberts also
alleged that in several of the cases the high-level employees received light
discipline in comparison to line agents charged with similar misconduct. All of
these cases were decided prior to the release of our November 2002 report.




                                      25
             1.    The FBI’s Promotion System

      The promotions process generally begins when an FBI division reports a
vacancy to the Executive Development Selection Program (EDSP). EDSP runs
the Special Agent Middle Management Selection System (SAMMS) Board and
the SES Board, both known as “Career Boards,” which operate from FBI
Headquarters and participate in the selection of candidates. The SAMMS
Board selects candidates for GS-14 and GS-15 positions, and the SES Board
selects candidates for SES positions.

        If EDSP agrees that the division has a position to fill, it will post the job
vacancy announcement for 14 days. At the end of the 14 days, EDSP sends a
list of all of the candidates who have applied for the position and been deemed
qualified by EDSP to the local Career Board, which is a group composed of FBI
employees in the division where the vacancy occurs, or to the division head.
EDSP sends the list to the local Career Board in the case of GS-14 and -15
positions, and to the division head in the case of SES positions. The local
Career Board or division head ranks the candidates and then justifies those
selections to either the SAMMS board or the SES Board, whichever is
applicable.

      After making their rankings, the local Career Board or division head
sends the names of the top three candidates to EDSP. EDSP contacts the
Security Division, the Equal Employment Opportunity Office (EEO), and OPR to
determine if the candidates have any matters pending in those offices. These
three offices then search their records for matters involving the candidates.
Record searches for candidates for SAC and ADIC positions cover their entire
careers. Record searches for all other candidates go back 3 years.

       During the course of this investigation, the FBI Director told us that he
had just learned that the FBI had not been taking steps to determine whether
candidates for promotion were under investigation by the OIG. He stated that
he would change that practice immediately and that candidates would be
screened for pending OIG investigations in the future. Officials in the FBI
Inspection Division told us that FBI OPR is now responsible for ascertaining
and reporting to EDSP whether a candidate has any pending OIG matters.
OPR officials, however, were initially unable to tell us what procedures were in
place to screen candidates for pending OIG matters. After checking into the
matter, J.P. Weis, OPR’s Deputy Assistant Director, told us that he believed the
Career Boards screen some senior-level candidates by contacting the OIG’s
liaison to OPR. The OIG liaison, however, stated that he has received only 4 or
5 requests for such checks to date and that it does not appear that a routine
policy has been established for screening all candidates for promotion.

      The FBI also told us that the current practice is that after the candidates
are ranked locally and the top three candidates screened for pending matters,


                                         26
the SAMMS or SES Board is given the rankings and information about any
pending matters. If any of the top three candidates has a pending matter, the
matter is described anonymously and the board is asked to determine whether
that matter should preclude a selection. The FBI was unable to tell us when
this practice started, and it appears not to have been followed in some of the
cases we examined in this review. The SAMMS or SES Board then selects the
top three candidates and ranks them in order of the board’s preference.

      The Director chooses all SES positions. To assist in these selections, the
SES Board prepares a memorandum to the Director regarding each posting.
The memorandum lists the top three candidates recommended by the board.
The memorandum also describes any pending matters regarding any of the top
three candidates. The Director also chooses all GS-15 ASACs and Legal
Attaché (Legat) positions and all GS-14 Assistant Legat positions with input
from the SAMMS Board.

            2.    Specific Cases

                  a.     SES 1

       SES 1, formerly an ASAC, was promoted to the SES position of Deputy
Assistant Director. SES 1 was the number one choice of the SES Career Board
for the DAD position. The Board notified the Director of its recommendation in
a memorandum that stated that SES 1 had experience in managing a very
large program that was relevant to the promotion.

       The SES Board’s memorandum included information about two pending
matters involving SES 1. The first matter was described as a preliminary
inquiry into whether SES 1 and four other agents were involved in the
improper use of a cooperating witness, the mishandling or theft of informant
payments, and the failure to report this misconduct. The memorandum stated
that this matter was under review by the OIG for a determination whether the
OIG or FBI OPR would investigate. The second matter was described as a
preliminary inquiry into an allegation that SES 1 committed voucher fraud in
connection with attending an international conference. The source of the
allegation was not revealed, but the memorandum stated that all vouchers
submitted by SES 1 would be reviewed and relevant witnesses would be
interviewed to see if the allegation appeared credible.

     A handwritten note by Deputy Director Gebhardt accompanying the SES
Board’s memorandum stated:

      Director – You have already called [SES 1] to advise [SES 1 of the
      promotion to] the DAD job. You are aware of the two preliminary
      inquiries (1) SES 1 had knowledge of improprieties of others and



                                       27
      failed to act and (2) alleged voucher fraud. One is under
      investigation, the other under review. – G

Gebhardt’s note reflects that the Director notified SES 1 in July 2002 that he
had selected SES 1 for the DAD position. SES 1 was not actually promoted
until October 2002. By October, the OPR voucher fraud investigation had been
closed after a determination that a full investigation was unwarranted. The
OIG, however, had opened an investigation regarding the allegations of misuse
of a cooperating witness and mishandling of informant payments. The FBI did
not seek the OIG’s assessment of the nature or status of our investigation
before promoting SES 1.

        FBI Director Mueller told us that he did not know how it happened that
he called SES 1 and offered SES 1 the promotion before he saw Gebhardt’s
note. The Director said he remembered asking Gebhardt for more information
about the OPR and OIG matters, but he did not remember if he made that
request before or after he called SES 1 with the job offer. The Director told us
that if he had to do it over again, he would have looked into the allegations
against SES 2 before offering the promotion to SES 1. The Director stated,
however, that at the time of the promotion, very few people at the leadership
levels in the FBI had the same experience as SES 1. The Director said that
where there is a need that few people can fill, he would probably not wait for an
OPR matter to be resolved. The Director said he was sensitive to the perception
this might create with lower level employees, but stressed the need to quickly
fill this position in light of the FBI’s law enforcement responsibilities.

       Gebhardt said that the Career Board voted unanimously to approve
SES 1 and that in his experience ASACs “are accused of everything” and those
accusations usually “wash out.” He explained that is why he would tend to
give someone in SES 1’s situation the benefit of the doubt. Gebhardt said he
told the Director that they had “a very competent [employee] with excellent
skills” and that they had an opening “now.” According to Gebhardt, he
recommended to the Director that SES 1 be approved and added that if SES 1
did something wrong, SES 1 would be disciplined for it.

      We believe that the FBI should not have promoted SES 1 without first
seeking information from the OIG regarding the nature and status of the OIG’s
investigation of SES 1. When we interviewed Director Mueller in June 2003, he
stated that he had just learned that the FBI had not been taking steps to
determine whether candidates for promotion were under investigation by the
OIG. The Director told us that he would change that practice and that
candidates would be screened for pending OIG investigations in the future.




                                       28
                  b.     SES 2

       SES 2 was promoted to the position of SAC for the field office where he
had been serving as ASAC. SES 2’s supervisor reported to the SES Career
Board that SES 2’s supervisory skills were excellent and that he had won the
Director’s Award and the Attorney General’s Award for investigation. He also
stated that SES 2 was his preferred candidate because of his knowledge of the
investigations under way in the field office. In a memorandum to the Director
dated June 21, 2002, the SES Board ranked SES 2 as its first choice for the
position.

       The SES Board’s memorandum to the Director included the information
that OPR had initiated an investigation based on an allegation that SES 2
“engaged in investigative dereliction resulting in a violation of the Intelligence
Oversight Board (IOB) requirements.” It stated that OPR had requested that
SES 2’s supervisor interview SES 2 and conduct any other logical investigation.
The memorandum also reported that SES 2 had been interviewed and his field
office recommended that the matter be closed. The matter was still pending at
the time of the promotion because a second subject of the inquiry had not yet
been interviewed.

      The OPR matter was resolved in December 2002. OPR found that a
Foreign Intelligence Surveillance Act court order was issued on February 27,
1998, which did not authorize the continued surveillance of a particular area
that had previously been under surveillance. Due to an administrative
oversight made by an agent under SES 2’s supervision, however, the
surveillance of that area continued for approximately 40 days. OPR concluded
that the inquiry revealed potential performance-related issues, but failed to
substantiate any significant disciplinary issues.

      We do not believe that the decision to promote SES 2 while the OPR
matter was pending was improper. The Director had information about the
nature and status of the investigation when he made his decision to promote
SES 2. The field office had already recommended that the matter be closed but
the matter had not yet been finally adjudicated. In addition, while SES 2’s
performance may have been an issue, the allegations against him did not
involve serious ethical violations. We do not believe that the decision to go
forward with the promotion under these circumstances was unreasonable.

                  c.     SES 3

      SES 3 was promoted to a DAD position. Roberts alleged that SES 3 had
been promoted while an investigation against him was pending. We reviewed
SES 3’s disciplinary file and found that he had received a letter of censure for
the accidental discharge of his weapon 3 months before he was promoted. The
matter was therefore no longer pending at the time that SES 3 was promoted.


                                       29
Moreover, the Career Board’s memorandum to the Director contained the
information about the nature of the allegations against SES 3 and SES 3’s
discipline.

       We did not find the promotion of SES 3 shortly after he received a letter
of censure to be improper. The facts of the matter were straightforward. SES 3
apparently improperly installed a trigger lock on his weapon and then tested it
by firing it under his desk. The weapon accidentally discharged. No one was
injured.

      SES 3 was the only applicant for the DAD position. Other candidates
were considered, but none of the other candidates had the background that
SES 3 possesses. SES 3 was the number one choice of the six members of the
Career Board who considered this promotion. Given the absence of other
suitable candidates and the accidental nature of the misconduct, we do not
believe the Director’s decision to promote SES 3 was unreasonable.15

                      d.      SES 4

       SES 4 was promoted to a DAD position from the position of Section Chief
in the same Division. The Career Board found that SES 4’s extensive and
outstanding experience in the Division, familiarity with the Division’s issues,
length of tenure in the Division, and other relevant experience in the FBI made
him the preferred candidate for the position.

      The Career Board made its recommendation to the Director in a
memorandum dated September 24, 2002. The memorandum also contained
information that in March 2002 OPR opened an investigation of an allegation
that SES 4, while serving as an ASAC in another Division, failed to report to
OPR allegations that another employee took FBI property without
authorization. According to the memorandum, SES 4 told OPR that he had not
reported the matter because he viewed the incident as an inappropriate storage
of FBI property in non-FBI space, rather than as a theft of government

15 Roberts also alleged that the disciplinary action in the SES 3 matter was below the

minimum standard set by the Director. In 1997, the Director mandated that, absent definitive
mitigation, an accidental discharge of a firearm as a result of the disregard of established safety
procedures would result in a minimum of a three-calendar day suspension. As discussed in
note 5, supra, an agency may not take a suspension action of 14 calendar days or less against
an SES employee. OPR found that SES 3’s actions did not warrant a suspension of 15 days or
more and therefore issued a letter of censure.
       We do not find it unreasonable to issue a letter of censure rather than to impose a
suspension for longer than the usual minimum period. As we discussed in our November 2002
Double Standard Report, one of the reasons that discipline for SES employees often falls
outside of the normal range is the restriction on suspensions for SES employees. Accordingly,
we recommended in that report that the law be changed to allow the full range of disciplinary
options with which to discipline SES officials.



                                               30
property. SES 4 explained that the employee had transported FBI refrigerators
and SWAT equipment to his father-in-law’s house in conjunction with the
Division’s move to new office space. SES 4 also said he viewed the incident as
poor judgment by the employee rather than misconduct requiring reporting.
The memorandum to the Director stated that the matter (SES 4’s failure to
report) was currently being adjudicated.

       On October 28, 2002, OPR issued a letter of censure to SES 4 for his
failure to report the employee’s misconduct. The letter reflects that SES 4
explained that he did not believe the employee was trying to steal the
refrigerators because he had used two FBI employees to help him move it.
SES 4 also explained that the refrigerators and the SWAT equipment (a
rappelling rope) were returned to FBI space immediately, and that the employee
was given an oral reprimand and a memorandum documenting the incident
was placed in his file. OPR concluded that SES 4’s explanation was
insufficient to override the reporting policy, and that his failure to report was
aggravated by his supervisory position, which gave him a heightened
responsibility to report such conduct.

    The FBI Director announced SES 4’s promotion to the DAD position by
memorandum issued to all divisions on October 28, 2002.

      We do not believe that the decision to promote SES 4 was inappropriate.
Before the promotion, the Director received information about the nature of the
allegations being investigated by OPR and SES 4’s response to them. The
promotion itself was contemporaneous with the resolution of the OPR
investigation. That investigation revealed that although SES 4 did not report
the employee’s conduct to OPR, he retrieved the property and admonished the
employee. There was no evidence that SES 4 attempted to cover up improper
conduct.

       We also considered Roberts’ allegations that SES 4 was treated more
leniently than two agents who were suspended for failing to report misconduct.
We reviewed the OPR investigations of the two agents, who were alleged to have
failed to report information about a sexual relationship between another FBI
agent and the wife of an organized crime figure. OPR concluded that the
agents had failed to report their knowledge of the relationship.

       OPR suspended one of the agents for 10 calendar days without pay. The
OPR report regarding that agent stated that, given the agent’s 17 years of FBI
experience, including 15 years in a city with a significant organized crime
presence, he should have recognized the risks posed by an FBI agent having an
affair with the wife of an organized crime figure. OPR also found that his
failure to report the information was aggravated by his position as a supervisor,
and by the fact that when his SAC asked him about the agent’s relationship
with another female thought to be associated with criminals, he failed to report


                                       31
any information about the agent’s affair with the wife of the organized crime
figure. OPR suspended for 5 days the second agent who failed to report. This
lighter penalty was apparently based on the lack of aggravating factors.

       The OPR precedent database does not indicate that lower level agents are
generally treated more severely than SES employees based on findings of
failure to report misconduct. We found that a letter of censure was the most
common discipline imposed for failure to report misconduct. For example,
letters of censure were issued in the following cases:

      •     an agent failed to report that another agent was misusing his
            government vehicle;

      •     a supervisory agent failed to report mishandling of evidence by his
            subordinates;

      •     a supervisory agent failed to report allegations of misconduct made
            by a private attorney against an FBI employee, which included
            allegations of misuse of position; and

      •     a support employee failed to report the gambling activities of his
            co-workers on FBI property.

       The case involving the two agents who failed to report the sexual
relationship between another agent and the wife of an organized crime figure is
an extreme one and potentially had very serious consequences. We do not
believe that SES 4’s failure to report the misuse of FBI refrigerators, after
taking steps to retrieve the refrigerators and admonish the employee, is
comparable.

                  e.    SES 5

       SES 5 was promoted from an ASAC position to a Section Chief position
in the same Division. The SES Board considered him to be the most qualified
candidate for the position. The Board’s memorandum to the Director stated
that OPR had opened an administrative inquiry in July 2002 into whether
SES 5 had engaged in an inappropriate relationship with a non-agent
subordinate, which resulted in acts of favoritism. The inquiry examined
specific allegations that SES 5 approved travel for the subordinate when
similar travel for other employees was cancelled; intervened to extend the
deadline on a job posting to allow the subordinate to apply; and provided
training opportunities for the subordinate that were not provided to other
employees in the same grade and position. A handwritten note on the
memorandum from Deputy Director Gebhardt, who was the Chairman of SES
5’s Career Board, stated: “opened OPR on [SES 5] 7/24/02.… But I think he


                                       32
should be approved.” Gebhardt told the OIG that he, on the Director’s behalf,
subsequently approved SES 5’s promotion while the OPR investigation was still
pending.

      A review of the OPR case file reveals that the case was designated as
“serious,” and that there was strong evidence at the start of the investigation
that SES 5 was involved in an improper relationship with the subordinate.

       We asked Gebhardt why he recommended that SES 5 be promoted
without looking further into the OPR investigation. Gebhardt stated that at the
time of SES 5’s promotion he maintained a philosophy that FBI employees are
innocent until proven guilty. He said he also believed that if the investigation
of a candidate for promotion was substantiated, that employee would be
disciplined for the misconduct. Gebhardt stated that now he would most likely
recommend delaying a promotion pending an OPR investigation.

      When we interviewed the FBI Director about the matter, he questioned
whether he should hold up a promotion because of allegations of favoritism.
Director Mueller said that if an SES employee was found to have committed
misconduct, he was prepared to take “harsh action” against him. By way of
example, he said that in another case involving favoritism allegations against
an SES employee - the DAD 1 case discussed earlier in this report – DAD 1 had
been fired. (The Director was unaware that although OPR initially proposed to
fire DAD 1, former OPR AD Jordan reversed that decision.16) Nevertheless, the
Director told us that if the allegations in the SES 5 matter were proven,
appropriate action would be taken against SES 5.

       We believe that given the serious nature of the charges against SES 5,
his promotion should have been delayed pending the conclusion of the OPR
investigation. As we stated in our November 2002 Double Standard Report,
FBI management should be mindful of the message it sends both to
investigators in a particular case and the rest of the FBI when subjects of
significant investigations, particularly senior level managers, are promoted
while under investigation for serious allegations of misconduct.




16 Jordan told us that when he proposed DAD 1’s dismissal, he told only the Security Division.

After DAD 1 received the letter proposing dismissal, DAD 1 walked through the halls at FBI
Headquarters complaining loudly. As a result, Gebhardt called Jordan and asked him why he
had not told the Director or Gebhardt that he was planning to dismiss a senior-level employee.
According to Jordan, Gebhardt told him that in the future he should notify him or the Director
when such decisions were being made. Jordan said he did not notify the Director or Deputy
Director when he later decided not to fire DAD 1. He said that the direction he received from
Gebhardt was to inform him or the Director when he was going to dismiss someone, not when
he was going to impose a lesser punishment than dismissal.



                                             33
                   f.    SES 6

       SES 6 was promoted from an Inspector position to a DAD position. At
the time of his promotion, he had been the Acting DAD in that Division for 5
months. There were five applicants for the position, but only two were deemed
to be competitive. The Career Board ranked SES 6 as the number one
candidate. SES 6’s promotion came only 9 months after he was suspended
from duty without pay for 15 calendar days based on allegations that he had
used his former position as an ASAC to create a job in the FBI for his daughter
so she could have employment while attending college; and that he furnished
beer to FBI employees during working hours in FBI office space.

      The SES Board’s memorandum to the Director stated that SES 6 recently
was the subject of an investigation and attached the suspension letter
describing OPR’s findings in the matter.

       The Director told us that he did not recall seeing the promotion package
for SES 6, but that his failure to recollect did not mean that he did not see it or
discuss the promotion with his then Chief of Staff. The Director stated that
since he did not sign the memorandum approving SES 6’s promotion, he was
most likely out of town, but that he would have discussed the promotion with
his chief of staff, who signed for him. Director Mueller said he recalled that
SES 6 was already working in the position in an acting capacity and that he
was thought to be doing “a very good job.” The Director stated that because
SES 6 was already a member of the SES, the move to the DAD position was
lateral and not a promotion in grade. The Director said that he was concerned
with the perception that the move was a promotion. He emphasized, however,
that SES 6 had already been punished and that the move was lateral in grade.

      We do not think that the Director’s decision regarding SES 6 was
unreasonable under the circumstances. The fact that someone has been
disciplined by OPR should not become a permanent bar to career advancement
in the FBI. How long and to what extent a closed disciplinary proceeding
should affect someone’s career advancement is within the discretion of the
Director, and we do not believe his decision in this case was unreasonable
under the circumstances.

                   g.    SSA 3

      Roberts alleged that in August 2002 SSA3, who was then a level GS-14
employee, was denied a promotion because of a preliminary inquiry into
allegations that he had accessed an adult website while on duty. Roberts
suggested that SSA 3’s case, compared with the cases described above in which
senior managers were promoted despite pending investigations of their
conduct, illustrates a continuing double standard.



                                        34
      In January 2002, OPR opened a preliminary inquiry into an anonymous
allegation that SSA 3 was seen viewing pornography on the Internet during
working hours. Roberts told us that he did not believe there was sufficient
evidence to open a full inquiry, but that he took steps to have the computers to
which SSA 3 had access analyzed for evidence of access to pornographic sites.
The FBI’s computer analysis section analyzed one of the computers to which
SSA 3 had access and did not find any evidence to show it had been used to
view pornography. By August 2002, when SSA 3 was considered for the
promotion to a GS-14 position, the other six computers to which SSA 3 had
access had not yet been analyzed.

       On August 20, 2002, the SAMMS Board met to consider candidates for
several different positions. SSA 3 was among those being considered for GS-14
supervisory positions in the Counterintelligence Division. The audio recording
of the SAMMS Board meeting reflects that after the initial ranking of
candidates, the Board was presented with EEO and OPR cases related to the
candidates. The Board was given a brief description of outstanding allegations
or investigative findings of completed cases, related to the candidates without
being told which candidate was the subject of which investigation. During the
discussion of the allegations against SSA 3, the Board questioned whether the
misuse of the computer was a one-time incident or an ongoing problem.
Someone on the Board mentioned that the Director had previously barred the
career advancement of an employee who had a continuing problem with
pornography.

       The Board made its recommendations to the Director in a memorandum
dated September 3, 2002. The Board recommended that SSA 3 and another
SSA be chosen for two of the supervisory positions. The memorandum
provided information about the pornography allegations against SSA 3, but
stated that it was the unanimous recommendation of the SAMMS Board that
the OPR inquiry “should not preclude” SSA 3 from being selected for the
position. An attachment to the memorandum describing the OPR inquiry
included a handwritten note to the Director which stated that OPR still did not
know, as of August 21, 2002, whether SSA 3’s alleged viewing of pornography
was a “one-time vs. multiple occurrence.” The note stated that the Board made
its recommendation on the basis that it appeared to be a one-time event, but
that the Board would have voted otherwise if it had been a recurring problem.
The note stated that the Board was reluctant to hold up SSA 3 for promotion
based on an investigation that had been in the preliminary inquiry stage for
over 8 months.

      Ultimately, the Director did not approve SSA 3 for the position. A
handwritten note from Deputy Director Gebhardt dated September 23, 2002,
stated “SSA 3 not approved at this time until OPR resolved.” Gebhardt
explained to the OIG that in writing this note to the Director he concluded that



                                       35
the nature of the allegations against SSA 3 warranted the delay of SSA 3’s
promotion until the investigation was concluded.

       The Director stated that he did not recall the specifics of this matter.
After reviewing the promotion file, he said he believed that he wanted to know if
SSA 3’s behavior was a one-time occurrence and what the recommendation of
the Career Board would be in light of that information. The Director said that
he believed he asked Gebhardt to find out more details about SSA 3’s OPR
investigation. The Director said that the decision was not based on SSA 3’s
lack of seniority. He said that he has approved promotions to GS-14 and GS-
15 positions for “a lot” of other candidates who had pending OPR matters.

       We do not believe the Director’s decision to withhold SSA 3’s promotion
until the resolution of the serious charges against him was inappropriate.
There were other qualified candidates for the position, and we do not believe it
was unreasonable for the Director to want to know before promoting SSA 3 the
outcome of OPR’s inquiry into whether SSA 3 had on one or more occasions
accessed pornographic web sites.

                  h.    OIG Analysis

      Of these promotions, SES 5’s and SES 1’s caused us concern. As
discussed above, we believe the SES 1 promotion should not have gone forward
without information from the OIG about the nature and status of our
investigation of the allegations against SES 1. We also believe that, given the
strength of the evidence supporting the favoritism allegations against SES 5,
his promotion should have been postponed pending the conclusion of the OPR
investigation.

       Gebhardt told us that at the time he recommended SES 1’s promotion
and approved SES 5’s promotion for the Director, his prevailing philosophy was
that employees are “innocent until proven guilty” of misconduct allegations and
thus promotions should proceed without regard to pending investigations.
That philosophy appears not to have been consistently applied, however, as
illustrated by the SSA 3 case, which was decided close in time to SES 5’s
promotion. Nor should it be, since the nature of some charges and the
strength of the evidence may counsel strongly in favor of withholding
promotions pending the completion of some misconduct investigations. We
believe that the better practice is to consider these matters on a case-by-case
basis and to seek relevant information about the nature of the allegations and
status of the inquiry from the OIG and from internal FBI investigative
components. The Director has stated that the FBI will follow that practice
when considering future promotions.




                                       36
V.     CONCLUSION

      In sum, our review did not find any examples of a case “disappearing” or
“vaporizing,” as Roberts suggested on 60 Minutes. Moreover, the small number
of cases we reviewed in this report provides an insufficient basis to conclude
that the FBI systematically favors SES employees over less senior employees.

      In addition, the FBI appears to be taking seriously the concerns about a
double standard of discipline. It specifically requested our investigation of the
allegations we reviewed in this report, and it also independently sought another
review, led by former Attorney General Griffin Bell, of the operations of FBI
OPR. The FBI also supports, as do we, a legislative change that would allow
SES employees to be punished similarly to non-SES employees.17

      Moreover, the allegations raised in this review concern a small number of
the total cases handled by the FBI, and the cases reviewed do not involve the
egregious type of allegations of a double standard that we examined in our
November 2002 Double Standard Report, such as the Ruby Ridge matter and
the Potts retirement party case. We concluded that the cases in that report –
widely known throughout the FBI and, in our view, clear instances of disparate
treatment – led to the strong perception of a double standard of discipline
throughout the FBI.

      Yet, while the cases in the current review involve fewer and less serious
allegations of a double standard, they reinforce some of the concerns we
expressed in our November 2002 report.

      First, we believe that Roberts’ concern about the discrepancy in
discipline in the SAC 1 and SA 1 cases is valid. We believe that the decision
not to discipline an SES member despite repeated complaints that he made
jokes with crude sexual content at FBI functions is difficult to reconcile with
the decision to discipline a special agent for one incident of similar misconduct.

      Second, we believe that SAC 1 should have been recused from the Career
Board that selected for promotion the OPR Adjudication Unit Chief who
handled his disciplinary case. That Adjudication Unit Chief proposed that
SAC 1 receive non-disciplinary counseling as a result of the OPR investigation
of him. At a minimum, SAC 1’s participation in the Unit Chief’s Career Board
created an appearance of impropriety, if not an actual conflict of interest. It
also may help foster a perception that some OPR employees could be
17 As described earlier in this report, currently, by statute, SES employees may only be

suspended for 15 days or more. Non-SES employees may be suspended for any period of days.
This disparity results in SES employees receiving lesser punishments than non-SES employees
because deciding officials must choose between a letter of censure and a 15-day suspension,
and they sometimes choose the lesser punishment.



                                            37
influenced by the prospect that SES subjects of OPR investigations may
participate in Career Boards deciding OPR employees’ promotions. As in our
November 2002 Double Standard Report, we found the FBI to be insufficiently
sensitive to conflict-of-interest issues in promotion decisions.18

       Third, the DAD 1, SSA 1, and SAC 2 cases reinforce the conclusion
stated in our original Double Standard Report that the uneven application of
the Director’s “bright line” policy against lying, cheating, or stealing can affect
the perception of a double standard of discipline in the FBI. OPR adjudicators
concluded that both DAD 1 and SSA 1 were not candid with OPR investigators,
and an objective comparison of the facts in those cases reveals that both
violated the “bright line” policy. SSA 1, a non-SES member, was dismissed for
his violation. DAD 1, a member of the SES, was given a lesser sanction. As we
stated in our November 2002 Double Standard Report, a lack of uniformity in
applying the “bright line” policy necessarily creates a suspicion that favoritism
or cronyism is the reason that the “bright line” policy is not being followed.
That suspicion was exacerbated in the DAD 1 case where DAD 1’s proposed
dismissal for lack of candor and other violations was downgraded to a lesser
sanction for reasons that are not clear or persuasive. The SAC 2 case, in which
the candor issue was inappropriately left unresolved, is another example of the
uneven application of the bright line test, which can result in a perception of
favoritism.

       Finally, the SES 1 and SES 5 cases reinforce our earlier conclusion that
promotions of individuals who are under investigation for serious allegations of
misconduct should be carefully considered, especially when the allegations
appear to be supported by significant evidence. Director Mueller has stated
that the FBI will seek from the OIG and internal FBI components information
about the nature and status of investigations of future candidates for
promotion, but the FBI has not yet fully implemented procedures to accomplish
the Director’s stated intention. During this investigation FBI officials either
were unable to tell us what screening procedures were in place or provided
inconsistent descriptions of the procedures. At the time of this review, the OIG
was not receiving referrals routinely regarding promotion candidates other than
for the most senior positions in the FBI. In response to a draft of this report,
officials in the Inspection Division stated that the FBI had begun referring



18 In response to a draft of this report, the FBI acknowledged that “there is no specific

provision within the MAOP dealing directly with SAMMS Board members recusing themselves
from deliberations based upon prior OPR involvement.” The FBI nevertheless maintained that
there is “no evidence” that the FBI is insufficiently sensitive to conflict-of-interest issues in
promotion decisions. The case described in this report indicates the contrary. Moreover, the
lack of a written recusal policy reinforces our concern about the FBI’s insensitivity to conflict-
of-interest issues.



                                                38
additional promotion candidates to the OIG in July and October 2003.19 We
were told, however, that there are no written procedures in place for those
referrals. Given the confusion expressed by FBI officials during the course of
this investigation about the referral process, we believe that the FBI should
establish clear written procedures in order to ensure that it routinely and
consistently seeks information about pending investigations from the OIG, as
well as from internal FBI investigative components, for consideration in
promotion decisions.




19 In a letter dated October 20, 2003, to the Inspector General in response to the draft report,

the Assistant Director for the Inspection Division stated that in July 2003 the FBI began
forwarding to the OIG the names of candidates being considered for all SES, ASAC, and Legal
Attaché positions. Before then, the FBI was forwarding only the names of candidates for
Executive Assistant Director (EAD), AD, ADIC, and SAC candidates. The AD for the Inspection
Division also stated in his October 20 letter that the policy was expanded in October 2003 to
forward names of all special agents being considered for promotion to GS-14 and GS-15
supervisory positions. We were told that the procedure for the GS-14 and GS-15 promotions
would be implemented for the first time in connection with the October 29 SAMMS Board.



                                              39
ATTACHMENT 1




    40
SHOW:       60 Minutes

DATE: October 27. 2002



LOST IN TRANSLATION

ED BRADLEY. host:

 Lost in Translation is the s              ory of hundreds, if not thousands, of foreign
language documents that                    he FBI neglected to translate before and after
September 11 th because                     f problems in its language department, documents that
detailed what the FBI hear                   on wiretaps and learned during interrogations of
suspected terrorists. Sibe                 Edmonds, a translator who worked at the FBI's
language division, says th                  do.cumenls weren't translated because the division
is riddled with incompeten                 e and corruption. Edmonds was fired after reporting
her concerns to FBI officia                s. She recently told her story behind closed doors
to investigators   in Congre               s and to the Justice Department. Tonight she tells
her story to us.

(Footage        of Edmonds and l Bradley; FBI agents car.rying boxes out of house;
Edmonds         and Bradley)

BRADLEY;                               ~
            (Voiceover) B ause she is nuentin Turkish and other Middle Eastern
languages, Edmonds, a 3 -year-old Turkish-American,     was hired by the FBI soon
after September 11 th and iven top-secret security clearance to translate some
of the reams of document seized by FBI agents who, for the past year, have
been rounding up suspect d terrorists across the United States and abroad.

r.1s. SIBEL EDMONDS: T~ e                   first two months after the September    11 even!,                we--the
agents    out there      in--in--in        ew York, LA, other field offices, they were
working    around the clock. And I would receive calls from these people saying,
'Would     you please prioriti ethis and--and translate it?'

(Footage of Edmonds Sitli~g at desk; Edmonds and B;adley)

BRADLEY:          (Voiceover)         Bj   t Edmonds    says   that   to her   amazement.     from     the    day   she
started   the    job,   sha   was     t Id repeatedly     by one      of her   supervisors   that   there
was no urgency; that she hould t2~;e longer to translate documents so that the
department would appear o'/erworked and understaffed.     That way. it would
receive a 'arger budget fo the next year.

r..'ls. EC~.'ONDS:        We werel told by cur supervisors                that this was the great
 Ms. EDMONDS: Correct.

 BRADLEY:      I mean,    how iSI it possible   that the focus wasn't on terrorism,
 particularly after 9/11?

 Ms. EDMONDS: It was not. At least in that department. it was not.

(Footage of Bradley and E~mOndS)

BRADLEY: (Voiceover) E$        onds says that the supervisor, in an effo'rt to slow her
down, went so far as to er se completed translations from her FBI computer
after she'd left work for the day.

Ms.
work EDMONDS:     The next
      would be gone.             f
                             ay, I, vould come to work, turn on my computer and the
                       The ransla
                                    tion would be gone. Then I had to start all
over again and retranslate he sa me document. And t went to my supervisor and
he said, .Consider it a less n anc I don't talk about it to anybody else and
don't mention it.'

BRADLEY: What's the les~on?

Ms. EDMONDS: The ,essf      was don't work, don't do the translations. Go out and
spend two hours lunch bre ks, you know. Go and--don't go and get coffee
downstairs. Go eight bloc s away. Just chat with your friends. But don't do
the work because--and thi is our chance to increase the number of people here
in this department.

(Footage     of Edmonds    sittin6 at desk; Grassley speaking at podium; Grassley and
Bradley)                         1-

BRADLEY: (Voiceover) Sib I Edmonds put herconcems          about the FBI's language
department in writing to he immediate superiors and to a top official at the
FBI. Edmonds says for m nths, she got no response. She then turned for help
to the Justice Department'  inspector general, which is investigating her
claims, and to Senator Ch rles Grassley because his committee, the Judiciary
Committee, has direct over ight of the FBI.

                                j
Did she seem credible to Y u? Did her story seem credible?

Senator CHARLES GRAS LEY (Republican, Iowa): Absolutely, she's credible.                 And
the reason I feel she's very credible is because people within the FBI have
corroborated a lot of her st ry.

(Footage     of woman working at computer;         Kevin Taskasen speaking with woman;
prisoners at Guantanamo ~ay; Taskasen; Edmonds and Bradley)

BRADLEY:       (Voiceover) Th~ FBI hc:.sconceded that some people in the language
department     are una.ble to aldequately speak English or the la";guage they're
supposed to be tranSlatin~                                Kevin          Taskasen                 was       assigned              to   Guantanamo                         Bay    in

Cuba    to   translate             interrog-tions                   of   Turkish-speaking                        al-Qaida              members                      who    had

been captured after Septe ber 11tho The FBI admits that he was not fully
qualified to do the job.

Ms. EDMONDS: He neithe rl passed the English nor the Turkish side of this
language proficiency test.                              .'

BRADLEY: So that meanS ! if, for example, you had a--a terrorist detained at--at
Guantanamo    who had info mation about an attack being planned in the future
against the United States, hat person would not have been in a position to
translate that?

Ms. EDMONDS: Correct. ~e wouldn't.

BRADLEY:                 mean, that's ~ard to imagine.

Ms. EDMONDS:                   But that's Ithe case.

(Footage         of exterior.of~.                   Ef   gar      Hoov.er           FBI       Buildi~g.;          recovery             effort             at   World

Trade   Center           ~omblng               In   1    93;      exterior          of      FBI     Building;          recovery                 effa:rt        at

World Trade Center bombi                                 gin 2001; GAD documents                                       on foreign languages;
Grassley and Bradley)

BRADLEY:      (Voiceover) Cri ical shortages of experienced Middle Eastern language
translators have plagued I e FBI and the rest of the US intelligence community
 for years. Months before t e first World Trade Center bombing in 1993, one of
the plotters of the attack w s heard on tape having a discussion in Arabic that
no one at the time knew w s about how to make explosives, and he had a manual
 that no one at the time kne was about how to blow up buildings. None of it
was translated until well aft r the bombing, and while the FBI has hired more
translators since then, offic als concede that problems in tI,e language
division have hampered th country's efforts to battle terrorism, and according
to congressional    investigat rs, may have played a role in the inability to
prevent the September 11 t attacks. Earlier this year, the General Accounting
Office reported that the FB had expressed concern over the thousands of hours
of audiotapes and pages a written material that have not been reviewed or
translated because of a lack of qualified linguists.

Sen. GRASSLEY: If-If the t got word today that within-in a little while, the
Hoover Dam was going to e blown up, and it takes a week or two to get it
translated, as was one of t e problems in this department, you know, you
 couldn't intervene to preve t that from happening.

BRADLEY: So you think thrt this place does need an overhaul essentially?

Sen. GRASSLEY: It needs to be turned upside down..

(Footage of exterior of FBI Building; FBI agent; foreign flags; Bradley)

BRADLEY:                                            ~
             {Voice over) In s rush to hire more foreign language translators
after September    11 th, the 81 admits it has had difficulty performing
background    checks to det ct translators who ri:ay have loyalties to other
governments,    which could pose a threat to US national security.

Take the case of Jan Dick~rson. a Turkish translator who worked with Sibel
Edmonds. The FBI has admitted that when Dickerson was hired last November, the
bureau didn't know that s~e had worked for a Turkish organization being
investigated by the FBI's pwn counterintelligence unit, and they didn't know...
                                        I
(Footage of Turkish Emb~ssy; Edmonds and Bradley)

BRADLEY:            (Voiceover)      ..jshe'd had a relationship with a Turkish intelligence
officer stationed in waSh ~1                    gton     who    was      the    target        of that     invest;gation.
According         to Sibel    Edmo          ds,        Jan   Dickerson         tried     to    recruit     her    into     that
organization. and insisted that Dickerson                                be the only one to translate the
FBI's wiretaps of that Tur ish official.

What was her reaction w~en you didn't go along with--with her plan?

Ms. EDMONDS: She got ~ery angry, and later she threatened me and my family's
life.                                       !
                                            I
BRADLEY:           Threatened        yo~?

Ms. EDMONDS:                 Correct.

BRADLEY: Did--did you ta~e her threat seriously?

r..1s. EDMONDS:              Oh, yes. She said, .Why would you want to place your life and
your family's life In danger ~y translating these tapes?'

(Footage          of Edmonds       wor~ing at desk; State Dep~rtment                                     building; aerial view of
the Pentagon; Edmonds a~d Bradley)

BRADLEY:      (Voiceover) Edinonds says that when she reviewed Dickerson's
translations   of those tapes,l she found that Dickerson had left out information
crucial to the FBI's investi9ftion; information that Edmonds says would have
revealed that the Turkish in~elligence officer had spies working for him inside
the US State Department a~d at the Pentagon.

Ms. EDMONDS:
were extremely
                                                t
                            We came cross at least 17, 18 translations. communications
                           impor1ant f r--for the ongoing investigations of these
                                                                                                                                             that

indivi--individuals.

BRADLEY: And she had not translated these--these--this information?

Ms. EDMONDS:                 No, she h~d marked it as 'not important to be translated.'

BRADLEY:           Specifically,        wh~t kind of information                         did she leave out of her
translation?                               I,

Ms. EDMONDS: Activities t~ obtain the United States military and intelligence
secrets.                                          I

(Edmonds working; Edmon~s and Bradley)

BRADLEY:             (Voiceover)        Edmonds                says she complained                      repeatedly         to her bosses       about
what      she'd    found      on the wir1taps                and about          Jan Dickerson's                  conduct,         but that
nobody       at the     FBI wanted              to \ hear      about it.       She says          not even         :~e assistant
special      agent     in charge.
Ms. EDMONDS:            He said, '
                                        1       YOU      realize      what     you   are   saying         here      in your
allegations?      Are   you   telling         e   that      our     security     people     are     not     doing      their

jobs? Is that what you're tell ng me? If you insist on this investigation,
 I'll make sure in no time it wil turn around and become an investigation                                                 about
you.' These were his exact ords.

(Footage of FBI letter to Ed~onds; Bradley)

BRADLEY: (Voiceover) Sibe ~Edmonds was fired this past March. The FBI offered
no explanation, saying in the letter only that her contract was terminated
completely for the governme t's convenience.

But three months later, the                 ~
                                I conceded that on at least two occasions, Jan
Dickerson had, in fact, left 0 t significant information from her translations.
They say it was due to a lac of experience and was not malicious.

(Footage of exterior of home! Chicago Tribune article; Grassley and Bradley)

BRADLEY: (Voiceover) DiCk~ rson recently quit the FBI and now lives in Belgium
She declined to be interview d, but two months ago, she told the Chicago
Tribune that the allegations gainst her are preposterous and ludicrous.
Senator Charles Grassley sa s he's disturbed by what the Dickerson incident
says about internal security t the FBI.

Sen. GRASSLEY: You shou~ n't have somebody in your organization that's
compromising our national s curity by not doing the job right, whether it's a
lack of skills or whether it's i tentional.

BRADLEY:        Based on your e~perience.                          does the Sibel Edmonds case fall into any
pattern of behavior. pattern 9f conduct on-on the pan of the FBI?

Sen. GRASSLEY: The usua* pattern.     Let me tell you, first of all, the
embarrassing infonnation co es out, the FBI reaction is to sweep it under the
rug, and then eventually the shoot the messenger.

(Footage       of John Roberts le~ving building; Roberts and Bradley)

BRADLEY: (Voiceover) spe ~ .al agent John Roberts, a chief of the FBI's Internal
Affairs Department, agrees. And while he is not permitted to discuss the Sibel
Edmonds case, for the last 1 years, he has been investigating misconduct by
FBI employees and says he s outraged by how little is ever done about it.

Mr. JOHN ROBERTS: I don                     t know of another person   in the FBI who has done the
internal investigations that I               ave and has seen what I have and that knows
what has occurred and what                   has been glossed over and what has, frankly, just
disappeared, just vaporized.                 and no one disciplined for it.

(Footage of Robert Mueller ~peaking at podium; Roberts; Edmonds working;
Roberts and Bradley)        I

                                            r
BRADLEY: (Voiceover) DeS 1e a pledge from FBI director Robert Mueller to
overhaul the culture of the F I in light of 9/11, and encourage bureau
employees to come forward 0 report wrongdoing, Roberts says that in the rare
in.stances when employees re disciplined, it'~ usually lo\v-level employees like
Sibel Edmonds who get pun shed .3nd not their bosses.
rv1r.ROBERT3: I think th ~ dOUblestandard of discipline will continue no matter
who comes in, no matter ho tries to change. You--you have a certain--certain
group that--that will con tin e to protect itself. That's just how it is.

BRADLE,Y:   No matter wha~ happens?

~'r. ROBERTS: I would say no matler what happens.

BRADLEY: Have you foun~ cases since 9/11 where people were involved in
misconduct and were not.!et alone reprimanded, but were even promoted?

Mr. ROBERTS: Oh, yes. 1bsolutely.

BRADLEY: That's astonis~ing.

f\1r. ROBERTS: Why?

BRADLEY: Because you--you would think that after 9/11, that's a big slap on the
face. 'Hello! This is a wa*e-up call here.'

Mr. ROBERTS: Depends ~n who..youare. If you're in the senior executive level,
it may not hur1 you. You ~ill be promoted.

BRADLEY: In fact, the sup rvisor who Sibel Edmonds says told her to slow down
her translations was recen Iy promoted. Edmonds has filed a whistle-blower
suit to get her job back, bu last week, US Attorney General Ashcroft asked the
court to dismiss it on grou ds it would compromise national security. And also
on the grounds of national security, the FBI declined to discuss the specifics
of her charges, but it says t takes all such charges seriously and
investigates them.

(Announcements)
